      Former AmeriCorps Member Debarred for Education Award Fraud Scheme

A former AmeriCorps member from New York City has been barred from participation
in all Federal programs for two years following his guilty plea in a scheme to defraud the
Corporation for National and Community Service of $2,363.50 in education award funds.

The debarment of Mr. Otha Caldwell, announced August 29, 2003, by Mr. William
L Anderson III, the Corporation’s Debarment and Suspension Official, bars Mr. Caldwell
from participating in Federal procurement and non-procurement programs until August,
28, 2005.

Following an investigation by the Office of Inspector General, Mr. Caldwell pled guilty
in Federal court on August 9, 2002, to two counts of making false statements. He was
sentenced to serve two years of supervised probation, pay a $100 court fee, and make full
restitution to the Corporation.

While an AmeriCorps member in 1999, Mr. Caldwell used the address of a relative as the
mailing address for City College of New York in a scheme to divert his education award,
which was to be paid directly to the college. When the Corporation’s education award
check for $2,363,50, made payable to City College of New York, arrived at his relative’s
address, Mr. Caldwell intercepted, endorsed and cashed it for personal use.

Mr. Anderson said that Mr. Caldwell actions constitute a ``violation of the terms of a
public agreement so serious as to affect the integrity of the Corporation’s AmeriCorps
program.’’
